<html>
<title> - [H.A.S.C. No. 111-162]AIR MOBILITY PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-162]

                         AIR MOBILITY PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 28, 2010


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  U.S. GOVERNMENT PRINTING OFFICE
57-403                   WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    AIR AND LAND FORCES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
MIKE McINTYRE, North Carolina        MARY FALLIN, Oklahoma
ROBERT A. BRADY, Pennsylvania        DUNCAN HUNTER, California
JIM COOPER, Tennessee                JOHN C. FLEMING, Louisiana
JIM MARSHALL, Georgia                MIKE COFFMAN, Colorado
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
BOBBY BRIGHT, Alabama                MICHAEL TURNER, Ohio
WILLIAM L. OWENS, New York           TODD RUSSELL PLATTS, Pennsylvania
DAN BOREN, Oklahoma
                John Sullivan, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Scott Bousum, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, April 28, 2010, Air Mobility Programs.................     1

Appendix:

Wednesday, April 28, 2010........................................    21
                              ----------                              

                       WEDNESDAY, APRIL 28, 2010
                         AIR MOBILITY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3
Smith, Hon. Adam, a Representative from Washington, Chairman, Air 
  and Land Forces Subcommittee...................................     1

                               WITNESSES

Johnson, Brig. Gen. Michelle D., USAF, Director for Strategy, 
  Policy, Programs, and Logistics, United States Transportation 
  Command........................................................     4
Van Buren, David M., Acting Assistant Secretary of the Air Force 
  for Acquisition, Headquarters, U.S. Air Force, joint with Lt. 
  Gen. Philip M. Breedlove, USAF, Deputy Chief of Staff for 
  Operations, Plans, and Requirements, Headquarters, U.S. Air 
  Force, and Brig. Gen. Richard C. Johnston, USAF, Director of 
  Strategic Planning, Headquarters, U.S. Air Force...............     5

                                APPENDIX

Prepared Statements:

    Johnson, Brig. Gen. Michelle D...............................    27
    Smith, Hon. Adam.............................................    25
    Van Buren, David M., joint with Lt. Gen. Philip M. Breedlove 
      and Brig. Gen. Richard C. Johnston.........................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    49
    Mr. Smith....................................................    49

Questions Submitted by Members Post Hearing:

    Mr. Owens....................................................    55
    Mr. Smith....................................................    53
 
                        AIR MOBILITY PROGRAMS

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                         Washington, DC, Wednesday, April 28, 2010.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
     WASHINGTON, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Smith. Good afternoon. We will call the subcommittee 
meeting to order. The Air and Land Forces Subcommittee meets 
today to receive testimony on air mobility programs.
    And we welcome our witnesses: Brigadier General Michelle 
Johnson, who is the Director for Strategy, Policy, Programs, 
and Logistics for the U.S. Transportation Command [TRANSCOM].
    Welcome. Good to see you again.
    Mr. David M. Van Buren, who is Acting Assistant Secretary 
of the Air Force for Acquisition.
    Good to see you, sir.
    Lieutenant General Philip Breedlove, Air Force Deputy Chief 
of Staff for Operations, Plans, and Requirements.
    Welcome, General.
    And Brigadier General Richard Johnston, who is the Director 
of Strategic Planning at Air Force Headquarters.
    Welcome, General.
    Today's hearing follows the early March release of the 
Mobility Capabilities and Requirements Study 2016, or MCRS 
2016. MCRS 2016 was a significant study by the Department of 
Defense to identify mobility capabilities and requirements 
needed to support the U.S. strategic objectives in the 2016 
time frame. The study assessed the major components of the 
mobility system, including aircraft, aerial refueling, sealift, 
surface transportation ashore and afloat, pre-positioning, 
forward-stationing, and infrastructure.
    And that is, I think, the biggest questions that our 
committee is going to have, is how the plans that are put in 
place and that are reflected in the DOD budget that was 
submitted to us reflect those requirements, and also what has 
changed that has altered some of the numbers in those various 
requirements so that we can best understand why the Air Force 
and the Mobility Command think they need what they need, what 
has changed, and how we are going to meet those needs as we go 
forward, making decisions on the various airframes that we need 
to build and some, of course, which will be being removed from 
service at the same time; that, as we are doing all that, we 
are meeting those requirements.
    MCRS developed three cases to evaluate a broad spectrum of 
military operations linked to notional strategic environments, 
which is a fancy way of saying trying to figure out what might 
happen and to make sure we are prepared for it. Those airframes 
will be necessary to support possible decisions regarding 
future mobility force structure. Those cases included two 
nearly simultaneous large-scale land campaigns, demanding 
homeland defense consequence management events, and a long-term 
irregular warfare campaign.
    With few exceptions, MCRS-16 found the Department's planned 
mobility capabilities sufficient to support the most demanding 
projected requirements. Regarding strategic airlift, the study 
determined that the capacity of the Department's strategic 
airlift fleet exceeds the peak demand in each of the three 
MCRS-16 cases. Peak demand for one of those cases required 304 
strategic airlift aircraft.
    Of note, the previous mobility study, the Mobility 
Capabilities Study in 2005, or MCS-05, identified strategic 
airlift force structure of 292 to 383 aircraft as a moderate-
risk force. We hope our witnesses will be able to talk to us 
today about the differences between the 2016 and the 2005, as 
to how they came up with the slightly different numbers.
    Additionally, the current commander of the U.S. 
Transportation Command and his predecessor, who is now the Air 
Force Chief of Staff, have testified that a force of 316 
strategic airlift aircraft is considered the sweet spot for 
strategic airlift inventory. Congress passed legislation 
adopting 316 as the minimum number of strategic airlift 
aircraft last year.
    The current Air Force programmed strategic airlift and 
inventory includes 223 C-17s and 111 C-5s, for a total of 334 
aircraft. In this year's budget, the Air Force proposes to 
retire 17 C-5s in 2011, which would bring the inventory to 317 
aircraft. We also understand the Air Force plans to retire five 
additional C-5s in 2012, which would bring the total strategic 
airlift inventory below 316.
    For fiscal year 2012, we expect the Department of Defense 
will submit a legislative proposal seeking to change the Title 
X statute which mandates 316 strategic airlift aircraft be 
maintained in the Air Force inventory if the Department still 
plans to proceed with C-5 retirements beyond those now planned 
for fiscal year 2011.
    So, obviously, we want to know how to balance that out. Do 
we need to maintain that 316 number, or is it possible to move 
below it--is it possible and responsible to move below it? We 
would want to know the explanations for that.
    Regarding tactical or intra-theater airlift, MCRS-16 found 
that the programmed fleet of 401 C-130s exceeds the peak demand 
in each of the three MCRS-16 cases. The highest C-130 demand in 
these cases would have required 335 aircraft. However, the 2016 
study notes that the direct support mission to meet the Army's 
time-sensitive airlift requirements was not assessed and that 
C-130s may be required to supplement C-27s to support this 
mission.
    Of note, MCS-05 identified a moderate-risk intra-theater 
airlift force structure of between 395 and 674 aircraft. We 
hope our witnesses can address the Air Force analysis of the 
Army's direct support requirements today, as well as how 
tactical airlift inventory requirements have changed since the 
previous mobility study.
    The budget request also includes $65.7 million for 15 
aircraft in a new start program called the Light Mobility 
Aircraft. This program proposes to acquire commercial off-the-
shelf aircraft to satisfy a new Air Force light mobility 
mission requirement designed to build partner capacity, 
especially in lesser-developed partner nations.
    This program would support irregular warfare efforts to 
help prepare partner nations to defend and govern themselves by 
demonstrating an airlift capability that is consistent with 
their needs for infrastructure, methods of employment, 
acquisition and sustainment costs, and mission capability. We 
hope our witnesses can further expand on this new requirement 
in today's hearing.
    Before we begin, I would like to turn to my good friend and 
colleague from Maryland, the ranking member on the committee, 
Mr. Bartlett, for his opening statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    This committee has been actively working to try to 
understand the risk the Department is taking in its aviation 
programs. I hope this hearing will clarify some things for us 
because I have some real concerns about the force structure 
decisions that have been made.
    After reviewing the Mobility Capabilities and Requirements 
Study, the Quadrennial Defense Review, and the President's 
fiscal year 2011 budget request, it is still not clear to me if 
force structure recommendations were made based on a real 
requirement or simply constrained by the budget.
    As a case in point, I would like to highlight the tactical 
airlift programs and requirements. The Joint Requirements 
Oversight Council [JROC] validated a requirement for 78 Joint 
Cargo Aircraft [JCA], yet the current program of record 
reflects only 38. The Mobility Capabilities and Requirements 
Study recently concluded that we have excess tactical aircraft 
capacity; yet the study failed to account for the aircraft 
needed for the direct support mission to meet the Army's time-
sensitive intra-theater requirements.
    To complicate matters further, the President's budget 
proposes to retire several of the older C-130s in fiscal year 
2011. However, we subsequently are informed that you will have 
to take assets from the Air National Guard to backfill the gap 
created by the retirements.
    If the MCRS is at all accurate with respect to the tactical 
aircraft requirements, then why do we have to take C-130s from 
the Air National Guard to fulfill mission requirements in the 
active duty? I find this all very confusing and very 
concerning. I hope that our witnesses will shed some light on 
these decisions.
    Thank you, Mr. Chairman, for holding this hearing. I look 
forward to the discussion.
    Mr. Smith. Thank you, Mr. Bartlett.
    We will proceed with the panel's testimony and then get 
into questions.
    Without objection, all witnesses' prepared statements will 
be included in the hearing record.
    And, with that, we will begin with General Johnson.

STATEMENT OF BRIG. GEN. MICHELLE D. JOHNSON, USAF, DIRECTOR FOR 
   STRATEGY, POLICY, PROGRAMS, AND LOGISTICS, UNITED STATES 
                     TRANSPORTATION COMMAND

    General Johnson. Chairman Smith, Ranking Member Bartlett, 
and distinguished members of the subcommittee, it is truly an 
honor to testify before you today on behalf of General Duncan 
J. McNabb and the 140,000 men and women of the United States 
Transportation Command.
    Whether delivering equipment to give our warfighters 
decisive advantage over the enemy or flying wounded warriors 
home to receive the world's best life-saving care, these men 
and women give everything to provide hope and to earn the trust 
of the greatest fighting force on Earth.
    As you noted, Mr. Chairman, the MCRS results indicated that 
we have sufficient airlift, strategic and tactical, surge 
sealift, pre-positioned material, and Continental United States 
transportation assets to satisfy the most demanding scenarios 
used to determine the requirements in this study.
    However, the study did report a few exceptions where 
current programmed capacities were not sufficient to accomplish 
the mission: air refueling aircraft; offshore petroleum 
discharge system, or OPDS; and infrastructure at foreign 
locations. The advent of the new KC-X tanker will help address 
the air refueling shortfall, and the Navy is researching 
options for providing additional OPDS capability to ensure two 
systems are available.
    With respect to infrastructure, TRANSCOM remains ever 
vigilant in exploring strategies to ensure we can accomplish 
our mission. We are working infrastructure in two fronts. 
First, we are developing and improving concepts and 
technologies to overcome the constraints in delivering 
warfighter requirements to austere destination theaters. Some 
of this work includes joint high-speed vessels, airships, 
cargo-carrying UAVs [unmanned aerial vehicles], and precision 
airdrop.
    Second, we are maturing our strategy for global access with 
the completion of a global access study this summer. This work 
goes hand-in-glove with the development of our en route 
infrastructure master plan to identify and obtain funding for 
investments for the most critical en route locations, 
particularly multimodal locations like Rota, Spain, and Diego 
Garcia, where their ports are connected by roadways to 
airfields and, thus, provide critical support for our global 
force projection.
    Meanwhile, the men and women of TRANSCOM continue to 
transport supplies to our forces around the world. We rally to 
support humanitarian missions, such as Haitian earthquake 
relief, while remaining on track to meet the President's 
requirement for additional troops in Afghanistan by the end of 
this summer. Though sometimes challenging, these missions are 
the lifeblood of TRANSCOM.
    And though I sit before you in the Air Force blue today and 
am proud to do so, I do represent soldiers, sailors, airmen, 
and basically our fourth component in the commercial fleets of 
sealift and airlift in performing our mission. We appreciate 
the congressional support that allows us to accomplish our 
mission and ensure that transportation and logistics remain an 
asymmetric advantage for the United States.
    Chairman Smith and Ranking Member Bartlett, again, thank 
you for inviting me to discuss the remarkable work our TRANSCOM 
team accomplishes around the clock every day. Thank you for 
submitting my written testimony for the record, and I look 
forward to answering your questions.
    [The prepared statement of General Johnson can be found in 
the Appendix on page 27.]
    Mr. Smith. Thank you very much.
    Mr. Van Buren.

STATEMENT OF DAVID M. VAN BUREN, ACTING ASSISTANT SECRETARY OF 
 THE AIR FORCE FOR ACQUISITION, HEADQUARTERS, U.S. AIR FORCE; 
 LT. GEN. PHILIP M. BREEDLOVE, USAF, DEPUTY CHIEF OF STAFF FOR 
  OPERATIONS, PLANS, AND REQUIREMENTS, HEADQUARTERS, U.S. AIR 
 FORCE; AND BRIG. GEN. RICHARD C. JOHNSTON, USAF, DIRECTOR OF 
        STRATEGIC PLANNING, HEADQUARTERS, U.S. AIR FORCE

    Mr. Van Buren. Good afternoon, Chairman Smith, Ranking 
Member Bartlett, and distinguished members of the subcommittee. 
Lieutenant General Breedlove, Brigadier General Johnston, and I 
thank you for the opportunity to address the committee 
regarding the Air Force's current and future mobility 
requirements and programs.
    Within acquisition, we are focused on our warfighting 
customers and our strategic planning, represented by General 
Breedlove and General Johnston. We are focused on what we buy 
and how we buy it. We are working very hard on the critically 
important KC-X program, with a planned award date this fall. We 
have much effort, as well, on modernizing our aging force, such 
as the C-5 reliability enhancement re-engining program, and we 
plan to acquire 15 light mobility aircraft in fiscal year 2011 
to foster building partnership capacity.
    With a key emphasis on assuring affordability and reducing 
cycle time of deliveries to our warfighter customer, our 
overall efforts for C-17, C-5 modernization, C-27J, C-130J, and 
C-130 modernization are currently proceeding relatively well.
    The Air Force and its outstanding airmen remain focused on 
a mission, the continued security of our great Nation. And we 
thank the subcommittee for your shared commitment. We have 
submitted a combined statement for the record, and we look 
forward to answering your questions today.
    Thank you.
    [The joint prepared statement of Mr. Van Buren, General 
Breedlove, and General Johnston can be found in the Appendix on 
page 37.]
    Mr. Smith. Thank you very much.
    General Breedlove.
    General Breedlove. Sir, no opening remarks. I join in Mr. 
Van Buren's remarks.
    Mr. Smith. Thank you.
    General Johnston.
    General Johnston. Thank you, sir. No opening remarks, and I 
also join Mr. Van Buren.
    Mr. Smith. Okay.
    Well, I think it is obvious from the statement I gave the 
questions that we have. I will start out in one general area, 
and that is focusing on the C-5s and the C-17s and the balance 
between the two and how you see that meeting the needs. And the 
degree to which money is constraining your choices here is 
something that we would like to know, as well, just in terms of 
planning.
    But in terms of getting to the right number combination of 
those two aircraft, number one, if you could--and I guess I 
will start with General Breedlove--if you could explain to us 
better, you know, 316, 304, the differences in the outcomes 
between the 2005 and the 2016 studies. What has changed, and 
what makes you confident that 304 is enough to meet your needs 
and demands?
    General Breedlove. If you will let me just frame it, I 
might ask----
    Mr. Smith. Please.
    General Breedlove [continuing]. General Johnson to speak to 
that, since they did the study.
    Mr. Smith. Okay.
    General Breedlove. But, sir, as I think you are aware, what 
we are really concerned about is total ton-mileage required, 
which the study came up of. And, as these aircraft are 
balanced, the numbers will breathe one way or the other.
    The C-17 brings unique capability, its outsize cargo and 
lift capacity somewhat less than the C-5. So the balance is 
really about not the type of the airplane but the ton-mileage 
that they bring to the equation. As we lower C-5s, C-17s would 
come up, and may come up in a nonlinear fashion since they 
don't cover or carry the load that the C-5 does.
    As far as the numbers 304 and 316, if you don't mind, I 
will allow General Johnson to speak to it.
    Mr. Smith. Please.
    General Johnson. Thank you, sir, for the opportunity.
    And as you noted in your opening comments, the MCRS did 
take us forward in the way we have analyzed the fleet and the 
mobility capacity. The fleet mixes that you describe can vary, 
as General Breedlove described, to achieve the same outcome and 
the same output capacity.
    What the MCRS did that really improved over the fidelity of 
the MCS-05 was to take the three cases that you described in 
your opening comments and to stress air mobility in different 
ways so to bracket the, sort of, capacity requirements.
    One scenario had two major land campaigns that stressed 
this air mobility, the strategic airlift requirement. One 
really stressed the air refueling requirement, with a naval and 
air campaign combined with an asymmetric land campaign.
    And the third scenario took us to a new place to include 
irregular warfare scenario over a long term that required the 
rotation of forces and lacked infrastructure in a foreign 
environment that could accommodate the strat airlift, and so it 
put the strain on our system in a different way. And that was 
combined with another land campaign.
    And so those three scenarios were meant to bracket the 
capacity which we would need with more fidelity, frankly, than 
we had in the MCS-05. So, in itself, there is a range within 
MCRS such that the least demanding requirement for strat 
airlift demanded 274. Three-hundred-and-four was the greatest 
requirement.
    As General McNabb has said before--and you cited him and 
General Schwartz as using the 316 figure. At the time, that was 
their best judgment based on MCS, standing by for the results 
of MCRS. And that is what General McNabb would express to you, 
that there is that other clause that he would want to add that 
was pending MCRS results.
    And so the 304 provides the capacity that TRANSCOM is 
looking for, and then we count on the Air Force to manage that 
fleet internally to maintain that capacity.
    Mr. Smith. Okay.
    General Breedlove. Sir, if I could add just one thing----
    Mr. Smith. Sure.
    General Breedlove [continuing]. And I am sure General 
Johnson would agree with me, that, in each of the three cases, 
too, one of the biggest delimiters on how we could move men, 
material, and equipment was the throughput capacity of the 
APODs [aerial ports of debarkation] at the destinations. In 
most cases, more aircraft made no difference in how fast we 
could move the material through.
    Mr. Smith. I am sorry. The ``throughput capacity of the 
APODs'' exceeded my level of understanding. Could you----
    General Breedlove. I am sorry. The aerial ports of the 
debarkation, the places where we unload.
    Mr. Smith. Okay.
    General Breedlove. The capacity of the airport to receive 
the material and then transload it and move it on was, in most 
cases, the biggest delimiter in the study.
    Mr. Smith. Okay. So basically what you are saying, then, is 
that the mobility issues--and this would go back to General 
Johnson--you know, have as much to do with what we are able to 
accommodate on the ground as it is in the air.
    General Johnson, do you want to comment on that?
    General Johnson. Yes, sir. Thank you. That is great 
insight.
    And, as you know, for the business of Transportation 
Command, we have become more sophisticated in our mode 
selection and found that, even though it might be 
counterintuitive, most of our throughput comes from the 
surface. We do 90 percent of our support from sea and land and 
only 10 percent by the air in mature theaters.
    Mr. Smith. Okay. I get it.
    General Johnson. So seaports and airports are the mainstays 
for what we do.
    In places where there are severe environments and lack of 
infrastructure, throwing in more resources that require that 
infrastructure don't actually help. It is counterproductive. So 
this infrastructure and this intermodal selection is really 
important, as we close the force.
    Mr. Smith. Okay. One more quick question, and then I want 
to get Mr. Bartlett in before we have to go vote.
    As you are looking to retire C-5As going forward, I think, 
as I mentioned in my opening statement, you know, 17 this year, 
five next year, have you estimated how long you expect the life 
of all of the C-5s to be? Do you have projections in 2013, 
2014, 2015, going forward, for how many more C-5s you are going 
to retire? And how does that impact the possible need for 
replacements, new C-17s basically?
    General Johnston. Sir, I can tackle that one.
    You are correct, we have plans to retire 17 in fiscal year 
2011 and then five in fiscal year 2012. And then we are also--
you know, we have to get relief from the 316 number, and we 
have plans to, as the number of C-17s go up, to reduce the 
number of C-5s accordingly, in order to maintain that 316 
number so far until we have relief down to a lower number, 304 
or what have you.
    Mr. Smith. How many more C-17s above the 223 are you 
expecting, at this point?
    General Johnston. Right now, 223 is what we are planning 
on, sir. We have no expectations to go any higher than that. 
And if we have a higher number than 223, then you get into the 
issue of how many C-5s are you going to retire. And then you 
get to a fleet size of C-5s to a point where----
    Mr. Smith. I got that.
    General Johnston. Okay.
    Mr. Smith. You actually have all 223 right now?
    General Johnston. No, sir.
    Mr. Smith. That is what I am asking. How many more----
    General Johnston. Oh, I am sorry. We are at 197 right now.
    Mr. Smith. Okay. So as they come up----
    General Johnston. Yes, sir. We are at 197. Probably be 
about 205, should be at 205 by the end of this year, fiscal 
year 2010; 215 for C-17s in 2011; and then 223 in 2012.
    And then, you know, depending on that mix, to stay at 316 
or go below, we are planning on lowering the number of C-5s if 
we do get relief to a number around 94 in fiscal year 2011 and 
probably about 89 in fiscal year 2012 on the C-5s. Again, we 
still have to ask for relief from that.
    Mr. Smith. Okay.
    I have C-27 questions, but something tells me Mr. Bartlett 
will take care of those, so I will yield to him.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    In my opening statement, I mentioned that the Mobility 
Capabilities and Requirements Study recently concluded, 
``failed to account for the aircraft needed for the direct 
support mission to meet the Army's time-sensitive intra-theater 
requirement.''
    Can you tell me what kind of analysis the Air Force is 
doing to determine the number of aircraft required to perform 
the intra-theater aircraft mission and the direct support 
mission?
    General Johnson. Mr. Bartlett, if I may, from the TRANSCOM 
perspective, frame this a bit and then have the Air Force fill 
in.
    The direct support mission is still being analyzed. This 78 
requirement that you mentioned was from the Army and JROC 
approved, and it is being analyzed in terms of the mix, the 
mixture that still matches up in terms of numbers.
    But in the meantime, the Air Force and TRANSCOM are very 
intent on providing direct support to the Army. And so we have 
already, in the last year, provided a concept of employment 
test with two C-130s, because C-27s aren't available yet, with 
which the Army was very pleased.
    In addition to that, General Odierno and General McChrystal 
have both expressed great appreciation to General McNabb for 
the additional direct support that AMC [Air Mobility Command] 
and TRANSCOM are providing in the form of 30 to 40 of C-130s in 
theater right now at the beck and call of the Army to provide 
the support they need, in addition to the airdrop support each 
and every day.
    And so, numerically, what we are looking at is, in addition 
to the 38 JCAs that you described, General McNabb and 
previously General White, in previous testimony in another 
committee, have cited that about 40 C-130 equivalents will be 
probably required to fill that bill. And so that is earmarked 
and set aside to make sure we can support the Army, and further 
supported by the notion that only about three airfields in 
Afghanistan are accessible by C-27s and not C-130s.
    So we think we can continue to provide that support with C-
130s until continued analysis can narrow down the exact number 
of C-27s. But it is tremendously important for us to earn that 
trust from the field commanders on the ground, and we seem to 
be doing so now.
    General Breedlove. Sir, if I could add just a short note, 
you are correct. And in the 78 number, I think our JROC used 
the number of 75, but they are close enough. The way we are 
addressing that is the 38 C-27s, which is the program of 
record, plus the 40 that General Johnson has mentioned, to 
bring the 78, a number that we will hold dedicated to that Army 
mission.
    We are currently flying under a construct called ``direct 
support apportioned.'' It is the construct that was worked out 
specifically by the Army. They are, as General Johnson 
mentioned, very, very happy with the way that is working out. 
And, again, General McChrystal and General Odierno have both 
personally approved and look forward to the way ahead on direct 
support apportion via the 78 aircraft.
    Mr. Bartlett. It is interesting that 38 plus 40 is 78, but 
we really don't have 40 C-130s or we wouldn't be taking them 
from the Guard, would we?
    General Breedlove, you know, over many months in many 
committees, I have asked the question, has there ever been any 
study that came to a different conclusion than that we needed 
78 Joint Cargo Aircraft? And the answer has always been, ``No. 
That is still a validated requirement.'' And if that is true, 
sir, why are we disregarding this validated requirement in our 
procurements?
    General Breedlove. Well, sir, I think I would agree with 
you, there have been no other studies that indicate any other 
number other than 78. And it is our intention to fill that 
requirement with the 38 C-27s and 40 apportioned C-130s, not 
necessarily from the Guard but from the general pool of the C-
130s in our TRANSCOM fleet.
    And, currently, the absolute requirement on the ground 
downrange now is being fulfilled by those C-130s, which are 
earmarked every day on the Air Tasking Order as ``direct 
support apportioned.'' So we are going to meet that requirement 
via those 38 C-27s and 40 aircraft dedicated against the 
requirement of 78.
    Mr. Bartlett. But we are taking those aircraft from our 
Guard and making them shorthanded. And the C-130 is not the 27, 
because it requires a longer field.
    Where we are now, you may be able to meet the need; where 
we may be next month, you may not be able to meet the need. I 
remain very concerned that this validated requirement for 78 is 
just being ignored and filled by an aircraft that we are kind 
of stealing from the Guard that doesn't really meet the 
requirements because it is not the same aircraft.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Coffman.
    Mr. Coffman. Mr. Chairman, I have no questions at this 
time.
    Mr. Smith. I actually have a few more questions. Actually, 
I wanted to ask about the Civil Reserve Air Fleet [CRAF], 
something I don't understand as well as I would like to, and 
how that figures into all of your plans, how you would assess 
the utility of it at this point.
    General Johnson, do you want to take a quick stab at 
talking about that a little bit?
    General Johnson. Yes, sir. What has been helpful to us in 
this study is to be able to measure a steady state over a long 
period of time to see how we really do business with the Civil 
Reserve Air Fleet so we can understand better how we can surge 
with the organic fleet. So the study was able to measure that.
    And you and I have had a chance to talk about--we tend to 
look at CRAF in terms of wide-body equivalents, in terms of the 
aircraft. But what is the bottom line is the amount we relied 
on CRAF, whether MCS or MCRS, is roughly equivalent, but what 
we have been able to look at is more of this steady-state 
rotational role the CRAF serves.
    And they primarily carry passengers and bulk cargo. The 
over- and outsized cargo and the weapons and the specialized 
sensitive equipment we carry on our ``gray tails,'' as we say 
it, or our organic fleet. So we look to CRAF to do bulk cargo, 
palletized cargo, and passengers. And so they manage that 
steady-state requirement day-in and day-out.
    And, in a long conflict, as we are in now and as we 
measured in MCRS, we had a better way to see what the role is 
for the CRAF. And our fleet seems manageable. We have 
requirements in each stage of CRAF to handle an activation 
surge, and we have participation from our fleet. And even right 
now, as we speak, there is a meeting with our civil carriers to 
help upgrade the CRAF program, to make it more responsive in 
this environment, and to upgrade the rules that really came 
into play in the Cold War.
    Mr. Smith. Okay. Thank you.
    We do have a series of votes, including a motion to 
recommit, which always adds a hour-hour, in the middle of it. 
So it is going to be a good 45 minutes to an hour, I suspect, 
before we are able to come back.
    And I can't even guarantee we are going to have that many 
more questions. I have a few more. But there may be Members who 
went to the vote who would like to have the opportunity to ask 
questions. I hate to make you hang around for an hour, but I am 
going to have to, just to make sure the committee has an 
adequate chance to ask questions.
    So we will be in recess until we can get back from the 
votes. Thank you.
    [Recess.]
    Mr. Smith. The votes always take longer than they actually 
should.
    We should also explain, Mr. Bartlett will not be able to 
come back. He had a 3:30 meeting with Ashton Carter from the 
Pentagon, as a matter of fact. And he informed me he will have 
to attend that.
    And, General Johnson, we were talking a little bit during 
the break there. You have had some further clarification on 
some of the C-130 answers. And, please, elaborate.
    General Johnson. Yes, sir. Thank you. I think if I could 
frame and then will look to my left for the Air Force to fill 
in some details.
    But the reference, the 130 force and the excess tails that 
are available that we found in a study--and I say ``excess'' in 
quotation marks--there were sufficient airframes to handle all 
the scenarios.
    One of the scenarios actually tested our intra-theater 
forces harder, in a sense that there are rotational forces and 
it goes over a long period of time, 7 years. And what we found 
that, even though the airframes were available, it is the crew 
force that is not able to sustain the rotations over time 
because of the way our policies work between the active duty 
and the Guard and the Reserve.
    Without being too arcane, the crew ratios differ, and the 
access to the crews on the active-duty side can work, but the 
limited number cannot support the conflict on its own; we need 
the help from the Guard and Reserve forces. The crew ratios in 
the Guard and Reserve forces are different, and therefore it is 
difficult to access the crews to sustain a long rotational-type 
conflict. And that is the shortfall that the study found, was 
in the crew forces, not so much in the airframes.
    And, with that, I think if I could yield to the Air Force 
to perhaps talk about the allocation of the crews and airframes 
within the force structure, that might bring some clarity. I 
hope that helps.
    Mr. Smith. Yeah, that would be great. Thank you.
    General Johnston. Chairman, thank you for the opportunity 
to just further elaborate on Mr. Bartlett's question.
    The most stressing scenario from the study led us to a 335 
number for C-130s. Of course, our current program of record is 
401 aircraft. And in addressing the direct support mission to 
the Army, as I was explaining to Mr. Bartlett, there is a 
requirement, validated by our JROC, for 75 aircraft.
    I think there may be a little confusion in that that 75 is 
very close to the 78 number that the Army was originally going 
to buy of C-27s. Currently, our program of record for C-27s is 
38, and that is what we will proceed with.
    Mr. Smith. And if I could clarify, building off Mr. 
Bartlett's questions, it is true that since the original study 
came out and said we need this many C-27s, no new study has 
been done that says we need that many C-27s.
    But I think what you are saying is, things have happened 
that have called into doubt, in your mind, whether or not you 
need the 78, I guess it was. We haven't done a full, formal, 
100 percent study that says, ``Here is the new idea,'' but 
there, as was discussed, the number of airfields that actually 
the C-130 can access.
    Do you plan to do--not to shift subjects on you in mid-
sentence here--but do you plan to do a more formal requirements 
study for the C-27?
    General Breedlove. Sir, I would like to get back to you, 
take that for the record. I think it is prudent that we would 
look at that, but I don't want to commit until I have gone back 
and taken a look at our requirements guys and asked them that.
    Because we do agree that 78 was a number that was developed 
by the Army, not by us, and we need to take a look at what that 
is, especially now that we have the experience, that we gained 
in October through December of last year when we actually did 
this mission for the Army and did it well.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Smith. Well, it would be helpful to the committee. 
Obviously, this is an issue of some concern to a number of 
Members. If we could have a more firmed-up requirements look at 
why you think this different ratio would work and play out for 
you.
    General Breedlove. Sir, we got that, and we will get back 
to you.
    And just to clear one point from our conversation with Mr. 
Bartlett, we do not intend to move any aircraft out of the 
Guard into the active duty to cover that 40. That 40 aircraft 
comes out of the general pool. That mission will be shared by 
active duty and Guard alike. So there is no movement across the 
active or the ANG [Air National Guard] to accommodate that 40 
aircraft.
    Mr. Smith. Okay.
    I wanted to have you talk a little bit about the tanker. We 
are all very much aware of the fact that there is a huge need 
and that it has taken too long to fill that need. There is 
certainly a tortured history and many to blame for the fact 
that it has taken that long. But be that as it may, we need the 
new tanker. And we are optimistic that we are now on a path to 
get it.
    But if you could quantify a little bit for us, either 
General Johnson or General Breedlove, you know, how bad is it 
right now in terms of our needs for tanker capacity. And in 
many of these studies, I did not see in front of me estimates 
of how many tankers we would need, how many we have, how we are 
going to handle the fact that they are getting old and, you 
know, will be out of service. And where are we going to have 
shortfalls as we wait to build the new tanker?
    General Johnson. Sir, if I may lead off, the study found 
that in two of the three scenarios we did not have sufficient 
air refueling support in the fleet. And in one case, we would 
need 103 percent of what we have, and obviously did not have 
sufficient use; and then 120 percent in the more air and naval 
campaign kind of scenario. And this tanker fleet, the existing 
fleet consists of the 59 KC-10s and the 415 KC-135s and the 79 
Marine Corps KC-130s.
    And the thing that is telling, probably, about this fleet 
is that this study used KC-135 equivalents. And anything that a 
modern aircraft would bring would help, because up to 19 
percent of the KC-135s are in depot at any one time. So a new 
aircraft would immediately provide more availability and better 
mission-capable rate right just to start with, let alone with 
the other capabilities it would bring in the requirements in 
the contract.
    So, as far as TRANSCOM is concerned, not only do we need 
more, the better quality would facilitate this. And the better 
capability might reduce the top-end numbers because of what it 
can bring, but we had to model what we have in KC-135 
equivalents.
    So, again, I think the depot rate really spoke to the age 
of the aircraft in this.
    Mr. Smith. So when you come to those figures of the 
shortfall in your scenarios, you are assuming that at any given 
time roughly 20 percent of that fleet will not be available.
    General Johnson. Yes, sir.
    Mr. Smith. Okay. That is factored into your scenario.
    General Johnson. Yes, sir.
    Mr. Smith. Okay.
    Well, I just want to reiterate this committee's commitment 
to do whatever we can to move that process forward as quickly 
as possible. We understand we now will likely--or will have a 
competitive bid with two companies. Certainly, I think that is 
good, to have competition. But we hope we will make a decision 
on that as quickly and as timely as possible. And it is my 
commitment on this committee to try and not muck with that, if 
you will. We want to get this decision done as quickly as 
possible. And just, you know, anything we can do to help or not 
hinder, please let us know.
    I don't have any further questions. I know Mr. Coffman--I 
am sorry--Mr. Coffman had been here, and he told me after the 
meeting that he did have a question, so I will give him a shot.
    Mr. Coffman. Thank you, Mr. Chairman.
    You know, when we look at the logistical support for Iraq 
and we are facing down in Iraq, we have port facilities that 
are available to offload key vehicles and various support 
equipment as well as weapons systems. But when we look at 
Afghanistan, it is incredibly logistically difficult to 
support. And we have really relied on airlift capacity to bring 
in things that we would not normally bring into an airstrip. I 
think pretty much all of our weapons--I think that things like, 
I think, chow and fuel maybe go on rail and then are trucked 
in, but pretty much everything else, I think, comes in through 
airlift.
    And so, are you able to meet the demands for Afghanistan 
now, number one? And, number two, when we phase down from 
Afghanistan, will we then have surplus capacity in terms of our 
airlift capability, or will the numbers and type of aircraft be 
reasonable to meet future challenges?
    General Johnson. Sir, thank you for that question.
    Afghanistan is about the most difficult location we could 
imagine to supply logistically, and yet a lot of the ratios 
remain. We provide about 80 percent of the supplies for 
Afghanistan by surface. And because it is an immature theater 
and, as you said, the infrastructure is not as robust, we 
provide about 20 percent by air. It is a sensitive, lethal type 
of cargo.
    However, still 80 percent by surface, because that is the 
way we work. Normally, in a mature theater, we would provide 90 
percent by sea and land and only 10 percent by air.
    The other thing that helps us not build in too much of an 
excess when we are in a, you know, great push, as we are now, 
is that we really tap into our commercial capacity. And that is 
one of the asymmetric advantages that Transportation Command 
has. We work with our civil reserve air fleet. We work with 
commercial partners on the sea and on the land. And so we not 
only bring in supplies by the ground via Pakistan but also from 
the Northern Distribution Network, with which I am sure you are 
familiar, whether from northern Europe, through Russia, or 
through the Caucasus, through Kazakhstan and Uzbekistan.
    And we tap into existing rail lines. And the advantage of 
this is these are commercial lines with commercial products. 
And so, when they arrive in theater, they are supplying the 
forces, but when we step back down at the end of this, the 
commercial infrastructure remains, hopefully, for the benefit 
of the region and their development, but not at the expense of 
the DOD [Department of Defense] to maintain it because it is a 
commercial network.
    In fact, I was able to travel with General McNabb to Manila 
last fall to be with him when he thanked the president of the 
Asian Development Bank for their investment in a railway link 
between Hairatan and Mazar-e-Sharif in Afghanistan to link the 
railway to the Ring Road. It helps us because it helps us gets 
supplies in, but it helps the region be more viable. And a 
peaceful and stable Afghanistan is something that all of the 
neighbors seek. Even though the neighbors are interesting 
there, they see the advantage there, too.
    So that is one of the great leverages that TRANSCOM brings. 
I hope that that comes to the nature of your question.
    Mr. Coffman. Mr. Chairman, if I could--but I understand 
that all the vehicles--is it true that all the vehicles are 
coming by air, all the MRAPs [Mine Resistant Ambush Protected 
vehicles] are coming by air?
    General Johnson. Over 2,000 of them have come now, sir, and 
we have probably about 6,000 to go. I mean, there is a large 
family of those vehicles.
    But what we have started to do is an intermodal solution 
that will close it quicker to send 300 to 400 by sea and then 
to an intermediate staging base near Afghanistan but not 
necessarily within the country, then offload and shuttle and 
use C-17s to the advantage for which they were made, to be able 
to fly these long legs, and cycle in faster than if we do, you 
know, four at a time or eight at a time in a wide-body 
aircraft.
    So, initially, yes, indeed, we have gone by air. We are 
looking at ways to do this intermodal system to get them 
faster. And we are able to, actually, now, keep up with the 
production rate and the integration rate so that we are getting 
them into theater over 500 a month, and we will be able to 
match the absorption rate that CENTCOM [Central Command] can 
take.
    So it is something we are watching very closely, and there 
is not much room to spare, but we are on track.
    Mr. Coffman. What is the dividing line between what is 
flown into the country and what is brought in by surface 
transportation?
    General Johnson. Normally, it is this idea of sensitive and 
lethal. It is something that you need to have and we can't 
afford to have out of our eyesight. But we have actually done 
experiments up the Pakistan line of communication with trucks 
with close RFID [Radio Frequency Identification] tracking, so 
that we have an eye on where they are, to see how that would 
work on the surface and see what is possible. We do it very 
carefully to make sure that we don't lose, again, control of 
what we have.
    It also provides us flexibility to be able to adjust to 
convoys with this RFID technology to be able to say, let's move 
this convoy ahead or adjust its order as we go through. So we 
try to use good supply-chain methods to have accountability for 
them.
    But on the ground--and you cited it initially, very 
astutely--food, construction materials, lumber, fuel, sort of 
fungible commercial products that can come in.
    General Breedlove. Sir, if I could just add one little 
piece to that to get to your specific question about how the 
mission is being accomplished inside Afghanistan.
    The tactical airlift piece of that, we are meeting the 
requirement and exceeding it, in some cases. If you were to 
talk to General McChrystal's staff right now and ask them what 
their needs are inside Afghanistan, it would be rotary-wing 
lift, especially high-altitude-capable rotary-wing lift.
    And, as was mentioned earlier, all the airfields that we 
use in Afghanistan, only three require an airfield that is 
smaller than a C-130 can service. A C-27 would be good for 
that, and that would be part of that mission set.
    But almost all of the requirements that we struggle to meet 
are rotary-wing lift to distribute after we move it in via 
tactical air or via ground commercial.
    Mr. Coffman. Mr. Chairman, if I could just follow up on the 
shortage on rotary-wing lift?
    Mr. Smith. Yes, go ahead.
    Mr. Coffman. General, just as a follow-up, could you 
address the shortfall on rotary-wing lift and where we are in 
terms of meeting that capability?
    General Breedlove. Sir, I would really like to get you a 
good answer for that, if I could take that for the record and 
get back to you. That is not exactly the detail I brought 
today.
    In general, it is heavy rotary-wing lift that can 
essentially operate at higher altitudes above 6,000 feet.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you.
    I am going to recognize Mr. Kissell in just a second. I do 
have a 4 o'clock meeting back up in my office that I have to 
get to. So, at some point during the course of his questions, I 
will slip out and turn the committee over to Mr. Kissell to 
wrap up.
    And I just want to, before I go, thank all of our witnesses 
for their testimony and their work on behalf of our country. 
Difficult decisions. I appreciate your work. We look forward to 
working with you on all those issues.
    And, with that, I will turn it over to Mr. Kissell.
    Mr. Kissell. [Presiding.] Thank you, Mr. Chairman.
    I apologize for not being here for the opening comments. I 
was doing some work on the floor. So I am not sure if this 
would have been discussed earlier. I know parts of it have been 
discussed since I have been here.
    But, a few weeks ago, right after the situation in Haiti 
first developed, there was a hearing that we had, and one of 
the questions that I was able to ask--and it concerned 
transport, and I am not sure if some of you might have been 
there or not--but I asked the question: Do we have lift 
capacity to be able to handle the situation in what is going on 
in Afghanistan and all of the challenges there, plus other 
places that we have to be, plus having a situation like Haiti 
come along, and to be able to accomplish all of this? And I was 
told that, yes, we did; we were able to rearrange some training 
exercises and move some equipment around; that we are fine.
    About 3 weeks after that, I got a call from the head of our 
National Guard in North Carolina, General Ingram, saying that 
the Air Force had stated that they wanted to take two of the 
Air National Guard-North Carolina C-130s. And I think it was 10 
all together from different States, two from North Carolina. 
And they were very concerned about this. We expressed that 
concern. We were advised last week that this was being worked 
out and that we should not worry about it anymore.
    Mr. Kissell. In another hearing maybe a couple of weeks 
ago, somebody had said to me, to the same reference, to tell 
General Ingram it is going to be fine.
    In what you said a couple minutes ago--and I am not even 
sure who said it. I apologize for that. Someone said that we 
have no intentions of taking Air National Guard equipment, C-
130s, to regular Air Force for a certain mission. Now, can we 
still assume that you don't need those C-130s for any other 
mission also, at this point in time?
    General Johnston. Sir, let me address the one that you 
asked first, which was directed more at the schoolhouse, 
providing C-130s to the Little Rock school house in order to 
continue that training.
    The E models at Little Rock are, you know, they are 
retiring. They are coming out of inventory. We are going to 
retire all the C-130Es. And the airplanes that you are 
referencing, it was 12 Air National Guard C-130s we were 
looking at and six Air Force Reserve C-130s, for a total of 18. 
And that was part of the fiscal year 2011 presidential budget.
    We heard you, and we are looking at a more efficient and 
effective way to manage the three components and come up with a 
solution that not only meets the State mission but as well as 
the schoolhouse mission at Little Rock Air Force Base. And we 
have been discussing with the Air National Guard as well as the 
Air Force Reserve and, of course, the active component, we have 
come up with a smart solution to address those concerns.
    And it hasn't been formally presented to the Secretary. And 
once it is--Secretary Donnelly--he will work that through to 
you all, to Congress, with the solution. And my sense is that 
he will come up--or, you should see a response on that in the 
next few weeks.
    Mr. Kissell. If you would keep us in the loop on that, it 
would be much appreciated.
    And I missed some conversation here, and, once again, I do 
apologize. The C-27, the number we were looking, at one time, 
78? Did I hear that we are down to 37?
    And Mr. Bartlett's question I missed. But, at one time, 
there seemed to be some talk up on the committee that the 
development of this joint cargo plane for the Air Force and the 
Army, it seemed to be going to the Air Force, who didn't seem 
to want it; that the Army wanted it. You know, where do we 
stand now? Are we down to 37?
    You mentioned earlier about the ability of this plane to be 
useful in a lot of situations in Afghanistan. What is the 
status of this plane right now and its needs and where we are 
going with it?
    General Breedlove. Sir, I would be happy to take that 
question.
    The Army created the original requirement for a Joint Cargo 
Aircraft. And, in their study, they developed a requirement for 
78 C-27-type aircraft, and that was the program that they 
embarked on.
    Then the Department of Defense entered the discussion and 
decided that that mission was more appropriately provided by 
the Air Force. And the Air Force was given the mission of doing 
direct support mission for the Army.
    At that time, the decision was also taken by the Department 
that 38 aircraft would be purchased of the C-27 variety. And 
since we have excess C-130 capacity in our Air Force--the 
current study says we need about 335, and since we have 401 in 
the total inventory, we would augment the 38 Sherpa buy with 40 
aircraft from the general C-130 population to accomplish the 
Army direct support mission. And so that would bring us back to 
a level of 78 aircraft available for that mission.
    And, as the chairman has aptly asked, we have as an Air 
Force now gone back and studied to see if the actual 
requirement is for 78. That was the number that the Army came 
to in their judgment.
    Since that time, we have had a lot of experience. We 
conducted a direct support experiment in Iraq, from October to 
December of last year, and we gained a lot of insight into what 
the Army requires to do that mission. The Army commanders on 
the ground were ecstatic with the performance of the Air Force 
in that mission.
    And so we were able to gain enough knowledge to know that 
what we will be able to do, as we further look at this, is use 
the 38 C-27s, plus 40 aircraft from the general population, to 
do the direct support mission. And then, as I spoke to the 
chairman, we will go back and bring back to the committee an 
answer about when and how we will study to see if that is the 
right number.
    In the meantime, we are accomplishing this mission 
currently in both Afghanistan and Iraq at the direction of 
General McChrystal and General Odierno. We are doing this via 
general support apportioned, which means we have aircraft that 
are set aside every day for direct support of the Army on the 
ground. And they, the aviation brigade commanders, can lay out 
the work for those aircraft on that day. And the Army is very 
happy with our performance in this general support apportioned 
role that we are doing now.
    And so, that is sort of the status of the problem. Does 
that answer your question, sir?
    Mr. Kissell. Yes, sir. Thank you so much.
    And the chair recognizes Mr. McIntyre from North Carolina.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you gentlemen for your service to our country.
    As you know, we have been interrupted by votes, and so 
hopefully what we ask right now has not already been asked. We 
would ask for your indulgence.
    But the average age of the C-5 is more than 27 years old. 
It has a very low mission-capable rate, I think about 30 
percent below the C-17.
    Since the C-5A is much less available than the C-17 and is 
20 years older and will have to be replaced at some point, has 
there not been some consideration given to keeping the C-17 
line open, in light of that situation?
    Mr. Van Buren. Right now, the stated requirement for C-17 
is 223 aircraft. It comes under the total force structure for 
strategic aircraft, which is 111 C-5s. So, right now, we have 
no acquisition plans for anything beyond the 223.
    Mr. McIntyre. I mean, would you be willing to consider 
that, given the age situation with the C-5?
    General Johnston. Sir, as we compare the number of C-17s 
and number of C-5s that we have and we compare it against the 
MCRS number of 32.7, which is the highest case number of 
million-ton-miles per day, we feel that the number of 223 C-
17s, based on the number of C-5s we feel will be in the force 
for the next 20 years or so, is about right.
    Mr. McIntyre. All right.
    No further questions right now, Mr. Chairman. Thank you.
    Mr. Kissell. Being we have no other Members here, 
Congressman McIntyre, any other questions you want to ask?
    Mr. McIntyre. No, sir. Thank you.
    Mr. Kissell. Okay.
    We would like to thank the panel for being here. And we do 
apologize for the interruption. I know there are questions that 
you will be getting back to us on, and as individuals in the 
committee, we appreciate that. And thank you for coming. Thank 
you for your service.
    And this is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             April 28, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 28, 2010

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 28, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    General Breedlove. Yes, the AF is presently engaged in an Air 
Mobility Command led analysis to determine the Direct Support Mission 
requirement. We anticipate preliminary results mid to late summer 2010. 
[See page 12.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN
    General Breedlove. From an Air Force perspective, we are satisfied 
with the size and make-up of our rotary-wing lift fleet. The Air Force 
is currently recapitalizing the existing HH-60 fleet and pursuing the 
Common Vertical Lift Support Platform for Global Strike Command and Air 
Force District Washington. These programs will allow the Air Force to 
meet our anticipated commitments. Furthermore, as our rotary-wing 
missions evolve or additional missions added, the Air Force will 
continue to conduct the appropriate analysis to meet national security 
objectives. [See page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 28, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. The previous mobility study, Mobility Capabilities Study 
2005 (MCS 05), identified a ``moderate risk'' range of strategic 
airlift aircraft as 292-383. Why does the current study identify only 
304 aircraft as meeting the most demanding scenario?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Last year, General McNabb testified that 316 strategic 
airlift aircraft is a ``sweet spot'' considering both wartime needs and 
the contributions of the civil reserve air fleet, or CRAF. His 
predecessor, General Schwartz, also identified 316 strategic airlift 
aircraft as the ``sweet spot.'' Has this belief changed in TRANSCOM? If 
so, why?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. In your remarks provided to the subcommittee, you noted 
that TRANSCOM supports the Air Force acquisition of light mobility 
aircraft and that it will ``pay dividends in our global logistics 
mission,'' but that TRANSCOM has no current plans to use these 
aircraft. Can you expand on how the light mobility aircraft will fit 
into the mobility mission from your perspective?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. MCS 05 identified a ``moderate risk'' range of 395-674 
intra-theater airlift aircraft necessary to meet requirements. MCRS 
2016 concluded that only 335 intra-theater aircraft are needed to meet 
the most demanding scenario examined. Why has the requirement for 
intra-theater airlift aircraft dropped so significantly?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The MCRS 2016 makes use of the CRAF fleet but it does 
not detail this usage in million-ton-miles. In previous testimonies for 
a number of years, DOD officials have depended upon CRAF to provide 20 
million-ton-miles (MTMs) of capacity per day. Does the MCRS 2016 raise 
this number or in any way increase the dependence on CRAF?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What was the greatest gap or shortfall that the MCRS 
2016 identified? Are there gaps that currently exist that are projected 
to be mitigated before 2016?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. To what extent is the MCRS 2016 a budget constrained 
forecast?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. MCRS is the anxiously awaited bedrock for many of the 
mobility-related budget decisions we will make in Congress this year, 
and for years to come. In order to provide some additional context, 
please share with us the major MCRS learning points for TRANSCOM, and 
how you intend to apply that information in your future decision-
making.
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Current operations are a fact of life and the backdrop 
for many decisions involving DOD. Were current operations taken into 
account for this mobility study? Tell us about that?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. How is the MCRS-16 study tied to the priorities of 
USTRANSCOM?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. How has recent experience with the Afghanistan forces 
increase, the Haiti earthquake, and the Chilean earthquake either 
validated or questioned the results of the study?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Last year, DOD agreed to establish objectives and 
measure of effectiveness to monitor CRAF modernization; what concrete 
steps have been taken to accomplish these improvements and what 
progress has been made?
    General Johnson. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. A recent newspaper report noted that the Air Force plans 
to issue ``technical corrections'' to its solicitation for bids to 
build a fleet of aerial refueling tankers, and that these corrections 
would be revisions in the rules for foreign-owned prime contractors so 
that it would be easier for EADS to bid without a U.S.-based industry 
partner. What corrections will be made to the KC-X request for 
proposal?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Please describe the acquisition and sustainment strategy 
for the light mobility aircraft. How did you arrive at a quantity of 
15? What validated requirement are these aircraft filling?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The average age of the C-5 is more than 27 years old, 
and has a very low mission capable rate (30% below the C-17). Since the 
C-5A is much less available than the C-17, and is 20 years older, and 
will have to be replaced at some point, why shouldn't consideration be 
given to keeping the C-17 line open?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The KC-135 fleet averages 49.8 years old and the KC-10 
fleet averages 26.3 years. MCRS 2016 noted that some scenarios require 
more aerial refueling aircraft than the 415 KC-135s and 59 KC-10s in 
the Air Force inventory. Is the Air Force funding modifications to 
these aircraft that will allow them to better meet requirements for 
availability until KC-X enters the inventory?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. MCRS 2016 determined that 335 intra-theater airlift 
aircraft were required to meet the most demanding scenario, but MCRS 
2016 did not evaluate the Air Force's direct support mission to meet 
the Army's time-sensitive cargo requirement. How many intra-theater 
aircraft need to be added to that 335 number to meet total inventory 
requirements for intra-theater aircraft?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. We understand that the active Air Force was planning to 
move 18 C-130s from the reserve component to the active to meet 
training and operational requirements? If the force structure is, in 
fact, adequate, why is that move necessary? General Wyatt testified 
before the committee last week and indicated that there may be changes 
to that request. Can you please update the committee on the issue?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. On February 27, 2008, the Air Force and Army Chiefs of 
Staff sent a letter to the committee on the C-27 program noting a 
requirement to ``build international partnerships around a common 
airframe.'' Since we have a program to procure 38 C-27s, why does the 
Air Force need the Light Mobility Aircraft to also do this mission?
    General Breedlove. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. Recent legislation passed by the Congress last year 
requires the Air Force to maintain a strategic airlift fleet of 316 
aircraft. With 111 C-5s, we will reach 316 aircraft when the 205th C-17 
is delivered in the first quarter of 2011. Does the Air Force plan to 
retire any of planned 17 C-5s before the first quarter of 2011?
    General Johnston. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. We understand that the Air Force plans to retire an 
additional 5 C-5s in 2012. Does the Air Force plan to submit a 
legislative proposal to change the requirement for strategic airlift 
aircraft from 316 to a lower number?
    General Johnston. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What are long-term Air Force plans for inventories of C-
130 and C-27 aircraft?
    General Johnston. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The MCRS only considered the program of record until 
2016. Although the C-5 could fly until 2025 and beyond, realistically 
when do you expect to completely remove the C-5As from the fleet?
    General Johnston. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. OWENS
    Mr. Owens. EADS, the parent company of France-based Airbus, 
recently announced that they intend to bid without a U.S. partner for 
the KC-X tanker program. It concerns me that any foreign-owned and 
foreign government financed company could possibly control the 
development, production and support of such a key piece of our national 
military capability. I am also concerned about the delays in this 
program's status. As an Air Force veteran I fully appreciate the 
tactical need for an upgraded fleet. I would have serious reservations 
about an award to EADS and any further delays. How would you resolve 
these concerns?
    Mr. Van Buren. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre></body></html>
